Supreme Court, U.S.
FILED

WAIVER

SEP 0 3 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Paul W. Nusbaum

20-168
v.

Marsha R. Nusbaum, et al
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Marsha R. Nusbaum

0 I am a member of the Bar.of the Sulireine Court of the United States.
E] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a B r member.
Signature
Date-

September 3, 2020

(Type or print) Name

Amy M. Feldman, Esq.
0

Firm

0 Ms. 0 Mrs. El Miss

Feldman Law, LLC

Address

502 Washington Avenue, Suite 101

City & State
Phone

Mr.

Towson, Maryland

410-296-6100

Zip
Email

21204

Amy@FeldmanLawLLC.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Paul W. Nusbaurn,.200 Loblolly Ct, Peachtrree City, GA 30269, Petitio er FaiWgIVED
Brian E. Frosh, Attorney General of Md.
Karen Hess Rohrbaugh, Assistant Attorney General
311 West Saratoga St.
Baltimore, Maryland 21201
Attorneys for Carroll County Child Support Administration

SEP 1 1 2020
OF THE CLERK
OFFICE
SUPREME COURT, U.S.

